                       U.S. Environmental Protection Agency 	                                               09-P-0053
                                                                                                      December 9, 2008
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s Radiation and Indoor
General contracted with           Environments National Laboratory
Williams, Adley & Company,
LLP, to conduct the annual         What Williams, Adley & Company, LLP, Found
audit of the U.S.
Environmental Protection          Vulnerability testing of EPA’s Radiation and Indoor Environments National
Agency’s (EPA’s) compliance       Laboratory (R&IEN) network identified Internet Protocol addresses with
with the Federal Information      medium-risk vulnerabilities. The R&IEN Laboratory has taken appropriate
Security Management Act           actions to resolve the network vulnerabilities under their control. Therefore, we
(FISMA). Williams, Adley &        are closing this audit report upon issuance in our audit tracking system. However,
Company, LLP, conducted the       we made recommendations in a separate audit report to the Director of the
network vulnerability testing     National Computer Center to resolve the open vulnerabilities for information
of the Agency’s local area        technology assets under their control.
network located at EPA’s
Radiation and Indoor              Due to the sensitive nature of this early warning report’s technical findings, the
Environments National             full report is not available to the public.
Laboratory in Las Vegas,
Nevada.


Background

The network vulnerability
testing was conducted to
identify any network risk
vulnerabilities and present the
results to the appropriate EPA
officials to promptly
remediate or document
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs,
and Management at
(202) 566-2391.
